                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

TO: AIGI       1   FileNumber: I94110044                                      1   Date: 13 March 2002

Subject: Closeout Memo                                                                    Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have developed his own web page available
      on the Internet which relied on the NSF server. The subject's NSF computer had to remain on 24
      hours a day in order for his web page to run. The supervisor counseled the subject regarding his use
      of the NSF server. The subject's web page is no longer available on the NSF server.

      Accordingly this case is closed.




                    Prepared by:                   Cleared by:

                   Agent:          Attorney:     Supervisor:     AIGI
   Name:



 Signature &
    date:
